June 15, 2004
Report No. 04-022


FDIC’s Information Technology
Examination Program




               AUDIT REPORT
                                               TABLE OF CONTENTS


BACKGROUND .......................................................................................................................... 2

RESULTS OF AUDIT ................................................................................................................. 7

QUALITY REVIEW PROCESS COULD IMPROVE INFORMATION TECHNOLOGY
EXAMINATIONS ........................................................................................................................ 7
          Type of Examination Performed .................................................................................... 8
          Work Programs Used ...................................................................................................... 9
          Evidence to Support the Report of Examination ........................................................ 11
          Recommendation ............................................................................................................ 14

CORPORATION COMMENTS AND OIG EVALUATION ................................................ 14

APPENDIX I:                OBJECTIVE, SCOPE, AND METHODOLOGY ................................... 16

APPENDIX II: SUMMARY TABLE OF RESULTS ........................................................ 19

APPENDIX III: UNIFORM RATING SYSTEM
              FOR INFORMATION TECHNOLOGY ................................................. 20

APPENDIX IV: TECHNOLOGY PROFILE SCRIPT ...................................................... 22

APPENDIX V:                CORPORATION COMMENTS ............................................................... 24

APPENDIX VI:               MANAGEMENT RESPONSE TO RECOMMENDATIONS ............... 26

TABLES

Table 1: Required Work Program and IT Examination Report Treatment for Each
         Technology Profile Category ...................................................................................... 5
Table 2: Technology Profile Category of FDIC-Supervised Banks, December 31, 2003 ..... 6
Table 3: Total Assets of FDIC-Supervised Banks by Type, December 31, 2003 .................. 6
Table 4: Performance Measures Related to Supervision and Examination ....................... 18
Table 5: Technology Profile Scoring Matrix .......................................................................... 22
BACKGROUND

According to the FDIC, no area of banking has changed as significantly during the past 10 years
as the IT area.3 Insured institutions increasingly have made banking services and data available
to customers through automated teller machines and transactional World Wide Web sites. The
complexity of maintaining a secure IT environment undoubtedly will increase as banks continue
to enhance technological capabilities and delivery channels. Also, attacks on IT systems are
increasing, and new vulnerabilities such as denial of service attacks4 are reported daily, which
actually or could cause substantial financial losses. Other risks include (1) threats to security;
(2) loss of availability, integrity, and confidentiality of information; and (3) regulatory
compliance with laws and regulations.

The FDIC’s primary concern about the financial industry's use of IT is the potential risk of loss to
deposit insurance funds from high-cost bank failures if risks are not adequately managed and
controlled. The FDIC principally addresses its concern by participating in government-wide
initiatives, issuing guidance, and conducting IT examinations.

FDIC’s Participation in Government-Wide Critical Infrastructure Protection Initiatives

FDIC has actively participated in government-wide efforts aimed at protecting the nation’s
cyber-based and physical infrastructures and key resources. The December 17, 2003 Homeland
Security Presidential Directive (Hspd-7) on Critical Infrastructure Identification, Prioritization,
and Protection established a national policy for federal departments and agencies to identify and
prioritize U.S. critical infrastructure and key resources and to protect them from terrorist attacks.
Recognizing that each infrastructure sector possesses its own unique characteristics and
operating models, Hspd-7 designated the U.S. Department of the Treasury as the Sector-Specific
Agency for banking and finance.

The U.S. Department of the Treasury, Assistant Secretary for Financial Institutions, chairs the
committee designated as the primary coordinating body for critical infrastructure initiatives
relating to the financial services industry and chairs the Financial and Banking Information
Infrastructure Committee (FBIIC). The FBIIC’s responsibilities include identifying the U.S.
financial system’s critical infrastructure assets, their locations, and potential vulnerabilities;
prioritizing their importance; and assisting primary regulatory agencies in addressing
vulnerabilities. The FBIIC is charged with coordinating federal and state financial regulatory
efforts to improve the reliability and security of the U.S. financial system. The FDIC participates
in FBIIC efforts to evaluate and protect the critical infrastructure of the U.S. banking and
financial services industry and to assess the vulnerabilities and risks facing the industry.




3
  FDIC Outlook, fall 2003 edition, Chicago Regional Perspectives, “Improved Security Is Vital as Information
Technology Grows More Complex,” p.17. The FDIC Outlook is published quarterly by the FDIC’s Division of
Insurance and Research as an information resource on banking and economic issues for insured financial institutions
and financial institution regulators.
4
  Denial of service attacks flood a computer network with data in order to deny access to legitimate users.




                                                        2
FDIC Guidance to Institutions

The FDIC distributes a majority of its guidance to bankers through Financial Institution Letters
(FIL). The FILs generally announce new regulations and policies, new FDIC publications, and a
variety of other matters of principal interest to bank management. In some cases, the FILs
explain specific examination procedures to be performed by FDIC IT examiners. For example,
FIL-118-2002, Information Technology Examination Procedures, dated October 9, 2002, and
effective November 1, 2002, announced new FDIC IT examination procedures for assessing
information technology risk. The FDIC has also issued several FILs covering areas such as e-
banking, IT audits, electronic fund transfers, business continuity planning, technology service
providers, and risk management.

FDIC IT Examinations and Related Policies and Procedures

Under section 10(d) of the Federal Deposit Insurance Act (FDI Act), all FDIC-insured institutions
are required to undergo on-site safety and soundness examinations by a federal regulator5 every
12 or 18 months6 depending on asset size and CAMELS7 ratings. Safety and soundness
examinations are the primary means to identify weaknesses that may ultimately lead to institution
failure. Although not required under the FDI Act, the FDIC also conducts IT examinations
designed to assess an institution’s IT risks. The FDIC normally conducts IT examinations
concurrently with safety and soundness examinations.

FFIEC’s Uniform Rating System for Information Technology

The FFIEC’s Task Force on Supervision has adopted the Uniform Rating System for Information
Technology (URSIT).8 The URSIT is an internal rating system used by federal and state
regulators for assessing the safety and soundness of information technology in financial
institutions and by service providers that furnish these services to financial institutions.

URSIT ratings consist of a composite rating and four component ratings based on a risk
evaluation of four critical components: Audit, Management, Development and Acquisition, and
Support and Delivery. The ratings are based on a scale of 1 through 5 in ascending order of
supervisory concern with 1 representing the highest rating and least degree of concern, and 5
representing the lowest rating and highest degree of concern. The URSIT is explained in more
detail in Appendix III.



5
  The four federal regulators are the FDIC, Federal Reserve Board, Office of the Comptroller of the Currency, and
the Office of Thrift Supervision.
6
  The FDI Act requires all FDIC-insured institutions to be examined on a 12-month cycle. The Act allows the
examination cycle to be extended to 18 months for institutions with assets of $250 million or less if other factors are
met – primarily that the institution is CAMELS rated 1 or 2 (see footnote 7), well managed, and well capitalized.
7
  CAMELS (Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk are the rating
factors used by federal regulators in examining the safety and soundness of FDIC-insured institutions. A rating of
1 through 5 is given, with 1 having the least regulatory concern and 5 having the greatest concern.
8
  The FFIEC recommended that the federal supervisory agencies implement the URSIT no later than April 1, 1999.




                                                          3
The primary purpose of the rating system is to identify those entities whose condition or
performance of IT functions require special supervisory attention. This rating system assists
examiners in making an assessment of risk and compiling examination findings. However, the
rating system does not drive the scope of an examination. Examiners should use the rating
system to help evaluate the entity's overall risk exposure and risk management performance and
to determine the degree of supervisory attention believed necessary to ensure that weaknesses are
addressed and that risk is properly managed.

FFIEC Examination Procedures

In 1996, the FFIEC issued its Information Systems (IS) Examination Handbook, an interagency
guide to assist regulatory examiners in examining information systems operations in financial
institutions and independent service bureaus. The handbook contains an overview of information
systems concepts, practices, examples of sound IS controls, and FFIEC examination work
programs. The handbook also covers regulatory policies of FFIEC member agencies for use in
the examination of information systems. The handbook is currently being updated and renamed
the FFIEC Information Technology (IT) Examination Handbook and is being reissued in a series
of booklets that either introduce new topics or replace chapters of the 1996 handbook. The first
booklet on information security was issued January 29, 2003. Eventually, the 1996 handbook
will be retired.

FDIC’s Risk-Focused IT Examination Procedures

On November 1, 2002, the FDIC launched a new program for assessing IT risk at FDIC-
supervised financial institutions. The program incorporated a new philosophy for categorizing
institutions' use of technology and exposure to technology risk and use of updated and more risk-
focused IT examination procedures. The FDIC developed two new work programs to accomplish
this:

   •   The IT-MERIT (Maximum Efficiency, Risk-focused, Institution Targeted) Procedures
       work program contains examination procedures used by examiners conducting technology
       risk reviews at FDIC-supervised financial institutions with the least technology risk.

   •   The IT General Work Program is used by examiners conducting technology risk reviews
       at FDIC-supervised financial institutions with low to moderate technology risk. The IT
       General Work Program consolidated several previously issued, technology-related work
       programs into a single work program and eliminated redundant review areas to improve
       examiner efficiency.

Examiners use the existing FFIEC work programs for all financial institutions with greater
technology risk and for institutions with complex or sophisticated technology systems.




                                               4
FDIC’s new risk-focused approach to IT examinations begins with classifying the IT risk at
financial institutions into one of four new IT examination categories. Table 1 shows the required
work programs and IT examination report treatments for each category. The new categories
describe an institution’s technology risk profile to address the different levels of risk posed by
financial institutions through their use of IT. These new technology profile categories are
applied to financial institutions through a standard methodology called the Technology Profile
Script. Details on the Technology Profile Script and scoring matrix and definitions of category
types are in Appendix IV.

Table 1: Required Work Program and IT Examination Report
         Treatment for Each Technology Profile Category
Technology
  Profile     Technology                                     Report Treatment
  Matrix        Profile            Required             Based on Technology Profile
Score Range    Category        Work Program            Category and URSIT Rating
                                                   Composite URSIT rating reported as
    0-49         Type I     IT-MERIT Procedures part of the bank’s safety and
                                                   soundness report.
                               IT General Work      If composite URSIT rating is 1 or 2:
    0-49        Type II                              only the composite rating is reported
                                   Program
                                                     as part of the safety and soundness
                               IT General Work       report.
                            Program supplemented    If composite or any component is 3,
   50-79        Type III                             4, or 5 rated: composite and all four
                                by FFIEC work
                                   programs          component ratings are reported in a
                                                     separate IT report of examination.
                                                   Composite and all four component
   80-130       Type IV     FFIEC work programs ratings are reported in a separate IT
                                                   report of examination.
Source: FDIC Regional Directors Memorandum 2002-043 and FDIC Financial Institution Letter FIL-12-99.




                                                    5
The Technology Profile category and total assets of all FDIC-supervised institutions as of
December 31, 2003 are shown in the following tables.

Table 2: Technology Profile Category of FDIC-Supervised Banks, December 31, 2003
             Region          Type I    Type II Type III Type IV      Total Banks
Atlanta                         370        60      236         22        688 (13%)
Chicago                         482       305      343         25      1,155 (22%)
Dallas (includes Memphis)       319       155      482         61      1,017 (19%)
Kansas City                     668       174      534         37      1,413 (26%)
New York (includes Boston)       98       128      366         41        633 (12%)
San Francisco                   198        26      162         31        417 ( 8%)
Total                         2,135       848    2,123       217       5,323
Percentage of Institutions      40%       16%      40%         4%        100%
Source: FDIC Division of Supervision and Consumer Protection, Information Systems Section.

Table 3: Total Assets* of FDIC-Supervised Banks by Type, December 31, 2003
           Region             Type I   Type II Type III Type IV        Total Assets
Atlanta                      $ 76,730 $ 5,977 $ 55,909 $ 93,241 $ 231,857 (14%)
Chicago                        46,000    38,421   81,975    16,539     182,935 (11%)
Dallas (includes Memphis)      28,961    12,228   81,198     54,492    176,879 (11%)
Kansas City                    35,688     8,893    69,717    14,300    128,598 ( 8%)
New York (includes Boston)     38,285    62,577 279,952 239,595        620,409 (37%)
San Francisco                  32,210     1,644 113,215 175,492        322,561 (19%)
Total                        $257,874 $129,740 $681,966 $593,659 $1,663,239
Percentage of Total Assets       15%        8%       41%       36%         100%
Source: FDIC Division of Supervision and Consumer Protection, Information Systems Section.
*Dollars in millions.

FDIC IT Examiner Workforce and Training

The FDIC uses specially trained IT examiners to conduct IT examinations. In 1997, the FDIC
developed two programs to address IT: the Information Systems On-the-Job Training (IS-OJT)
Program and the Electronic Bank Subject Matter Experts (E-banking SMEs) Program.
Examiners completing the IS-OJT program become part of a cadre of IT examiners available to
participate in IT examinations of large, complex data centers as well as perform other IS-related
assignments. Examiners completing the E-banking SME program are responsible for examining
technical aspects of e-banking activities of financial institutions that permit transactions over
public networks. The examiners also conduct examinations of non-bank service providers that
develop and support e-banking applications.

In December 2003, the IS-OJT program was revised to address increasingly complex networks,
Internet connectivity, and emerging electronic banking activities such as Internet banking and
electronic cash systems and was renamed the Information Technology On-the-Job Training
(IT-OJT) Program. The IT-OJT program is tiered to focus training on the graduated skill sets
needed to examine Type III and Type IV entities as well as other complex entities.




                                                      6
RESULTS OF AUDIT

FDIC’s IT examination program provides reasonable assurance that IT risks are being addressed
by risk management programs in FDIC-supervised financial institutions. The program requires
risk-focused IT examinations, which seek to identify and gain an understanding of the inherent
risks present at each institution, evaluate the effectiveness of the bank’s risk management and
internal control structures, and recommend improvements. FDIC IT examiners focused their
examination procedures on how well an institution manages and controls its high to moderate IT
risks, with less attention focused on how well an institution manages and controls low IT risks.
Consistent with the FDIC’s goals to reduce the overall burden on the financial institution through
the use of risk-focused examinations, not all control areas at the institution may be reviewed.
Nevertheless, the examination procedures adequately cover those controls needed for institutions
to implement an effective information security program.

We did identify opportunities for improving the quality of the IT examination process based on
our review of 21 IT examinations of banks with complex or sophisticated technology systems.
Specifically, the FDIC does not have a review process in place to determine whether appropriate
examination procedures are applied and that findings and conclusions are adequately supported.
Although the FDIC has a quality review process in place for its safety and soundness
examinations, the FDIC has generally not conducted similar quality reviews for IT examinations.
The FDIC can improve the quality, efficiency, and effectiveness of its IT examinations by
instituting a standardized quality review of all phases of the IT examination process and
supporting documentation prior to issuance of IT examination results.


QUALITY REVIEW PROCESS COULD IMPROVE INFORMATION
TECHNOLOGY EXAMINATIONS

Our review of IT examinations in 21 judgmentally selected institutions with complex or
sophisticated technology systems found that more effective supervisory oversight would improve
the quality of IT examinations. The sample consisted of 10 Type IV and 11 Type III financial
institutions as shown in Appendix II.

Twelve of the IT examinations we reviewed were conducted in accordance with FDIC policies
and procedures, and the corresponding reports of examination on each bank’s information
technology risk management program were adequately supported. Certain aspects of the
remaining nine IT examinations, however, were not conducted in accordance with policy and
procedures as discussed below:

   •   Incorrect Type of Examination Performed: For three institutions requiring Type IV
       examinations, examiners performed less thorough Type III examinations. FDIC’s
       Technology Profile Script prepared by examiners prescribed a Type IV examination using
       more thorough FFIEC work programs for these three banks. However, examiners used
       FDIC’s IT General Work Program, which provides for a more streamlined but less
       thorough examination.




                                                7
    •   Outdated Work Programs Used: Five examinations were conducted using rescinded
        information security-related sections of 1996 FFIEC work programs instead of the
        December 2002 FFIEC Information Security work program. The changes had been
        implemented by the FDIC in January 2003, and all five examinations were conducted
        after that date.

    •   Insufficient Support Provided: Three IT reports of examination were not adequately
        supported. For one examination, most of the work program used to document IT security
        work was blank, indicating that the work was not performed. For another examination,
        only one page of the work program was retained in the examination work paper files.
        Examiners also used an incorrect work program for this examination as discussed above.
        Finally, for the remaining examination, the work program for physical and data security
        was missing from the work paper files. Examiners also used an outdated work program
        for this examination, as discussed above.

In addition, we noted that examination work papers that were not always properly labeled and
signed or initialed by the preparer.

These conditions were primarily due to a lack of management oversight during the planning and
field work phase of the IT examinations and a lack of supervisory review of the supporting IT
work papers. Because IT examiners have broad discretion and must exercise considerable
judgment in planning, conducting, and drawing conclusions about an institution’s IT risk
management program, periodic supervisory reviews during all phases of IT examinations by
regional office IT specialists would be beneficial. Also, periodic quality assurance reviews
would ensure that IT examiners apply appropriate IT examination procedures, consistently
exercise sound judgment, obtain sufficient information to identify weaknesses in an institution’s
risk management program, and adequately document and support examination findings and
conclusions.

Type of Examination Performed

In three Type IV institutions with extensive core processing, networking, and e-banking
systems,9 examiners performed Type III examinations which were less thorough examinations.
Although the Technology Profile Script completed by examiners categorized all three institutions
as Type IV institutions requiring Type IV examinations using FFIEC work programs, in each
case, examiners performed Type III examinations using the FDIC’s IT General Work Program.

According to FDIC’s Regional Directors Memorandum (RD Memorandum) 2002-043, dated
September 30, 2002, examiners are required to use FFIEC work programs for all Type IV
institutions. Examiners scored all three institutions in the Technology Profile Scripts as Type IV


9
 Core processing includes loan, deposit, trust, or general ledger applications. Networking may be broadly defined
as workstations, branches, servers, or other communications devices. Most institutions have some networking
capabilities. E-banking includes both informational and transactional Web sites. Other examples include
maintaining or developing internal systems with bank programming staff and providing data processing or Internet
services for others.



                                                        8
institutions. Each bank scored 80 or more, resulting in a Type IV profile requiring IT examiners
to use FFIEC IT examination procedures.

     •   In the case of one institution with $1.1 billion in assets, examiners indicated in the Pre-
         Examination Planning Memorandum that a Type III review would be conducted using the
         FDIC IT General Work Program. Performing a Type III review conflicts with guidelines
         in the Technology Profile Script. Examiners did not document on the Technology Profile
         Script the reason why a Type IV examination would not be performed.

     •   For two other Type IV banks, IT examiners also performed Type III examinations using
         the FDIC IT General Work Program. For one bank with $3.1 billion in assets, examiners
         noted in the pre-planning memorandum that, “The full FFIEC IS [information security
         Type IV] work program will be used since the Bank services others for ACH [automated
         clearing house].” Nevertheless, examiners used the FDIC IT General Work Program in
         conducting the examination. For the other bank with $1.4 billion in assets, no qualitative
         adjustments were recorded on the Technology Profile Script, and no pre-planning
         memorandum was in the examination files to support using the IT General Work
         Program rather than FFIEC work program.

According to RD Memorandum 2002-043, a Field Supervisor or Senior Examiner may make
qualitative adjustments to the Technology Profile Script score to address significant risks not
included in the scoring model. The scoring matrix has a column for documenting such
qualitative adjustments. Qualitative adjustment factors may include all questions in the Script
that were not directly scored as well as other areas not included in the Technology Profile Script.
Once the Technology Profile Type is determined, additional risk characteristics, such as asset
size, prior IT examination ratings, and prior examination scope should be considered before the
final determination is made on the type of examination to be performed. While it is not clear
from the RD Memorandum whether scores may be adjusted downward, for these three banks no
adjustments were recorded in the Technology Profile Scripts to reduce the scores below 80.


Work Programs Used

For five Type IV institutions that had extensive core processing, networking, and e-banking
systems, IT examiners used rescinded 1996 security-related work programs instead of the
required 2002 security-related work programs implemented in January 2003. Examiners thought
the 2002 Information Security Booklet was not yet finalized and that they had the discretion to
use 1996 work programs. According to the Technology Profile Scripts, each of the five
institutions scored 85 or more, resulting in a Type IV profile, and each IT examination began
after March 30, 2003. For one of the five institutions, IT examiners used the security-related
sections of the 1996 FFIEC Community Financial Institution IS Examination Workprogram10 to
review the bank's information security. For the remaining four banks, examiners used the


10
  The 1996 FFIEC Community Financial Institution IS Examination Workprogram is applicable to small
institutions using vendor supplied and supported software. Use of this program is predicated on the fact that there
are no on-site systems and programming activity being performed by either bank staff or private consultants.



                                                          9
security-related sections of the 1996 FFIEC Information Systems Examination Handbook work
programs to review the banks’ information security.

On January 31, 2003, the Associate Director of DSC’s Technology Supervision Branch sent an
e-mail to the Assistant Regional Directors (ARD) responsible for IT examinations that the
FFIEC had issued new guidance and examination procedures regarding information security.
Specifically, the e-mail discussed the FFIEC’s new Information Security Booklet, the first in a
series of booklets comprising the new FFIEC Information Technology Examination Handbook.
The Associate Director pointed out that the December 2002 booklet updates and rescinds the
security-related guidance in the 1996 FFIEC Information Systems Examination Handbook,
including chapters 12 through 14. The e-mail stated that the remainder of the 1996 handbook
was still in effect and that examiners should use the work programs in the booklet in place of
those in the 1996 handbook for all examinations, beginning immediately.

The FDIC advised examiners and the financial institutions it regulates of the issuance of the new
FFIEC guidance on information security through FIL-11-2003, New Information Security
Guidance for Examiners and Financial Institutions, dated February 12, 2003. The FIL states
that on January 29, 2003, the FFIEC issued revised guidance for examiners and financial
institutions to use in identifying information security risks and evaluating the adequacy of
controls and applicable risk-management practices of financial institutions. The FIL stated that
the Information Security Booklet is the first in a series of updates to the 1996 FFIEC Information
Systems Examination Handbook and that the updates will address significant changes in
technology since 1996 and incorporate a risk-based examination approach.

In four Type IV institutions, the IT examiners used work programs from the 1996 handbook
instead of using the new 2002 examination procedures to assess the adequacy of information
security. Total assets at these banks ranged from $1.5 billion to $14.1 billion. In addition, for a
fifth examination, an IT examiner used the security-related section of the 1996 FFIEC
Community Financial Institution IS Examination Workprogram to review the information
security program at the bank. That workprogram included some questions in the new FDIC IT
General Work Program, which is prescribed for Type II and III institutions. The institution had
assets of about $4.8 billion and used extensive core processing, networking, and other critical
systems.

FDIC regional management advised us that it had addressed continued use of the 1996 FFIEC
work programs by a few IT examiners. In summary, FDIC management stated that although
errors in the process occurred, no substantive areas of the banks’ IT systems were omitted from
review through the use of the 1996 work programs. According to FDIC, the security
assessments did not lack in scope or depth, and the pertinent security risks were appropriately
identified.

We disagree with the position that Type IV examinations conducted using 1996 FFIEC work
programs for IT security-related work resulted in a complete review of the banks’ information
security programs. According to the FFIEC, the new Information Security Booklet contains
more than four times the information in the security section of the 1996 Information Security




                                                 10
Examination Handbook; therefore, there is a potential to miss areas of significant supervisory
concern. For example, new or significantly increased information applies to the following areas:

   •   Logical and Administrative Access Control
   •   Physical Security
   •   Encryption
   •   Malicious Code
   •   Systems Development, Acquisition, and Maintenance
   •   Software Development and Acquisition
   •   Host and User Equipment Acquisition and Maintenance
   •   Personnel Security
   •   Electronic and Paper-based Media Handling
   •   Logging and Data Collection
   •   Service Provider Oversight
   •   Intrusion Detection and Response
   •   Business Continuity Considerations
   •   Insurance

Many of the procedures used to review these areas are intended to be performed during in-depth
reviews of IT security rather than during the basic risk analysis. Consequently, review of the
areas listed above was not performed in five of the seven Type IV banks in our sample that had
Type IV examinations. The areas were considered by examiners to be outside the scope of the
basic risk analyses performed for the five banks. Only one Type IV examination in the Dallas
Region and one in the New York Region used the in-depth verification procedures to review IT
security. The expanded examination steps are also referred to as Tier 2 procedures. For the
remaining five examinations, examiners performed procedures designed to provide an overview
of risk and risk management processes, referred to as Tier 1 procedures. We found that there are
no criteria or standards to prompt examiners to perform Tier 2 in-depth review procedures.

Evidence to Support the Report of Examination

Three IT reports of examination were not sufficiently supported because documentation of
examiners’ reviews was either incomplete or missing. In addition, examiners who prepared
many of the work papers did not date, initial, or sign them or show the name of the institution
and its location.

According to RD Memorandum 2001-039, Guidelines for Examination Work Papers and
Discretionary Use of Examination Documentation Modules, dated September 25, 2001, the
preparation of examination work papers is an important part of documenting the examination
process and supporting examination conclusions. All work papers should be labeled with the
institution’s name and location and should be dated and signed or initialed by the examiner who
prepared the document. Examination findings should be documented through a combination of
brief summaries, bank source documents, report comments, and other examination work papers
that address both management practices and condition. Examination documentation should
demonstrate a clear trail of decisions and supporting logic. Documentation should identify
examination and verification procedures performed and conclusions reached and should support




                                                11
the assertions of fact or opinion in the financial schedules and narrative comments in the reports
of examination. Examiners should prepare a “Summary Statement,” which includes at a
minimum:

     •   a summation of the documentation relied upon during the review;

     •   the procedures used and analyses conducted to support conclusions relative to the
         assigned CAMELS components, Bank Secrecy Act11 examination findings, and other
         significant areas of review; and

     •   material discussions with management.

IT General Work Program

For one institution with assets valued at $2.6 billion, the IT General Work Program was
generally blank, and exceptions noted in the report of examination were not always supported or
detailed in either the work program or other examiner work papers. Although the work papers
contained numerous internal audit reports, internal bank meeting minutes, and bank policies and
procedures, there was no evidence of review (margin notes, highlighting, etc.) of any of these
items. Most of the questions in the IT General Work Program were not completed. For
example, all eight work program questions were answered in the institution’s Audits section.
However, for the Management section, only half of the 18 questions were answered; for the
Development and Acquisition section, none of the 4 questions were answered; and for the
Support and Delivery section, only 8 of 37 questions were answered. Overall, 25 (37 percent) of
67 work program questions were answered. The examiner appeared to have relied heavily on the
institution’s contracted internal auditor’s reports, risk scoping procedures, and review of the
questionnaire completed by bank personnel.

Based on our review of the IT General Work Program and documentation contained in the field
office IT work papers, we found two areas where the IT examiner(s) did not sufficiently
document their review of the IT area or support their IT exceptions:

     •   The embedded IT examination report contained the exception: “The scope of the internal
         audit is adequate but the frequency of audits is not adequate.” Our review of the
         examination work papers and work program revealed no write-ups or examiner analysis
         of the frequency of the bank’s internal audit program. Instead, a notation on the work
         program discussed the bank’s outsourcing of the internal audit function. There was no
         indication in the work papers or work program of how the examiner determined that the
         frequency was not adequate.



11
  The Bank Secrecy Act of 1970, Public Law 91-508, codified to 31 U.S.C. Section 5311 et seq., requires financial
institutions to maintain appropriate records and to file certain reports that are used in criminal, tax, or regulatory
investigations or proceedings. Congress enacted the BSA to prevent banks and other financial service providers
from being used as intermediaries for, or to hide the transfer or deposit of, money derived from criminal activity.




                                                          12
   •   The report also contained the exception: “There is no independent third party review of
       disaster recovery testing.” Our review of the examination work papers and work program
       indicated that the examiner noted “5 backup servers” and that the “[Bank] uses a
       contractor for offsite storage of daily backups of four of the five servers.” The work
       program and work papers contained no write-ups, notations, or analysis to support
       criticism of an independent third party review of disaster recovery testing.

In response to our inquiries about the reason the examiner performed only 37 percent of the IT
General Work Program and relied more upon the work of others, the responsible Field
Supervisor intends to institute an IT work paper review program at the field office level to
prevent future discrepancies of this type.

IT Examination Work Papers

Work papers were missing for two institutions. For one institution with $1.1 billion in assets,
most of the IT General Work Program was missing from the work papers. Only one page
containing three questions from different sections of the work program was included in the
examination workpapers.

Regional management told us that the Examiner-in-Charge (EIC) had experienced computer
problems during the completion of the examination that resulted in the loss of all data, including
the examination report. This ultimately resulted in the EIC having to reconstruct the report.
Electronic work paper data files were also lost. Although the IT General Work Program was
missing except for the one page, the other work papers were extensive, including summaries,
write-ups, and documents gathered and reviewed. A memorandum, dated May 9, 2003, was
prepared for the regional office Report and Correspondence files by a regional office IT
specialist, explaining the delayed processing of the report and lost electronic work papers due to
the computer problems.

In response to our inquiries about the missing IT General Work Program and computerized work
paper failure, the responsible Field Supervisor intended to institute an IT work paper review
program as discussed earlier.

For one institution with $12 billion in assets, the physical and data security work program used
to support the assessment and evaluation of the institution’s information security was missing.
Specifically, the examiners used the 1996 FFIEC work programs in their examination, and
within those work papers, reference was made to the use of the 1996 FFIEC Security -- Physical
and Data Workprogram and associated work papers. However, these work papers were not
among the regional and field office work papers provided. Other work programs included
documentation of risk scoping and work performed, including review of documents and
completed FFIEC work programs for each area reviewed. In response to our inquiries about the
missing work papers, a Regional IT Specialist made inquiries to determine the whereabouts of
the work papers but did not locate them.

The errors found in our sample could have been prevented by management oversight during the
planning and field work phases of the IT examination and supervisory review of supporting work




                                                13
papers. Because IT examiners have broad discretion and must exercise considerable judgment in
planning, conducting, and drawing conclusions about an institution’s IT risk management
program, periodic reviews by regional office IT specialists during all phases of IT examinations
would help to improve the quality of IT examinations.

Recommendation

We recommend that the Director, DSC, institute a quality review process for all phases of IT
examinations including planning, field work, supporting documentation, and reporting, to ensure
that IT examiners:

   •   consistently exercise sound judgment;
   •   apply the appropriate IT examination procedures;
   •   expand examination procedures when warranted;
   •   perform and document adequate work to support IT examination findings, conclusions,
       and ratings; and
   •   initial or sign and date the work papers and label them with the institution’s name and
       location.


CORPORATION COMMENTS AND OIG EVALUATION

On June 4, 2004, the DSC Director provided a written response to the draft report. The response
is presented in its entirety in Appendix V to this report. DSC generally concurred with the
report’s findings and agreed that the IT review process could be enhanced. DSC provided an
action plan in its response to the OIG recommendation that will enhance its quality review
process for the regional and field offices.


Field Office: Review of Pre-Examination Planning Memorandum

To ensure that examiners are performing the correct type of IT examination and using the correct
IT work program, DSC will assess and revise as necessary the instructions for the IT pre-
examination planning (PEP) memoranda, or in the case of embedded examinations, the safety
and soundness PEP, to include the following items: type of examination planned, Technology
Profile Script score, and the intended work program to be used. The PEP will reconcile any
difference between the type of examination and the Technology Profile Script score. Thus, the
PEP will provide a vehicle for supervisory personnel to review and approve major IT
examination decisions. The PEP will serve as a quality control measure at the beginning of the
IT examination process. DSC will assess, revise, and issue, as necessary the instructions for the
appropriate PEP memoranda by December 31, 2004.

Regional Office: Review of IT Examination Work

Currently, DSC’s regional offices have field office audit procedures that are administered by
regional office staff to verify that work programs are properly completed and findings are
adequately supported and documented. These programs commonly include reviews of IT



                                                14
examination work papers and generally address the five items that we recommended be
addressed in the quality review procedures.

To help strengthen this program, the DSC is standardizing a field office review program to
ensure examination program conformance with FDIC policies and to apply the appropriate
emphasis on areas reviewed. The standardized field office review program will incorporate the
items we suggested be addressed. The review program will also include periodic sampling of IT
examination work papers and a review of examination processing that will provide a quality
control measure at the completion of the IT examination process. DSC will implement
enhancements by March 31, 2005.

DSC’s response to the draft report meets the intent of the recommendation. Accordingly, the
recommendation is resolved but will remain undispositioned and open until we have determined
that the agreed-to corrective actions have been implemented and are effective.




                                              15
                                                                                  APPENDIX I



                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether DSC’s examinations provide reasonable
assurance that IT risks are being addressed by the risk management programs in FDIC-
supervised financial institutions. The audit field work was performed at DSC regional offices in
Dallas, Texas, and New York, New York. We performed our audit from October 2003 through
April 2004 and in accordance with generally accepted government auditing standards. We
focused our work primarily on IT examinations in banks with complex or sophisticated
technology systems and more than $1 billion in assets. To accomplish the audit objective, we
did the following.

   •   Reviewed four IT examination files – one of each technology profile category type – from
       FDIC’s Chicago region to determine the general content and organization of the files.

   •   Reviewed a copy of DSC’s Information Technology Risk Monitoring Interim Database
       (ITRMID), a system for collecting technology risk profiles for each FDIC-supervised
       financial institution and technology service provider.

   •   Interviewed officials at DSC’s Washington, D.C., headquarters office and the Chicago,
       Dallas, and New York regional offices.

   •   Obtained and reviewed a sample of 21 IT examinations performed in the Dallas and New
       York regions, including reports of examination and supporting documentation.

   •   Obtained and reviewed various bank examination data from FDIC’s Virtual Supervisory
       Information On the Net (ViSION) system.

   •   Reviewed DSC RD Memoranda, FILs, and operating manuals and policies pertaining to
       the safety and soundness and IT examination processes.

   •   Obtained and reviewed FFIEC guidelines and work programs relating to IT examinations.

Reliance on Computer-Generated Data

We relied on some computer-generated data pertaining to reports of examination from the
Interagency Examination Repository, bank information from ViSION, and IT examination data
from the ITRMID. We performed limited tests to determine the reliability of the data and found
no reason to expand testing.


Management Controls

Our review of the management controls for the examinations we sampled identified several
control weaknesses that are discussed in the finding section of this report.




                                               16
                                                                                  APPENDIX I


Prior Audit Coverage

The U.S. General Accounting Office (GAO), issued Electronic Banking: Enhancing Federal
Oversight of Internet Banking Activities, GAO/GGD-99-91, on July 6, 1999. The GAO found
that some regulators had been more proactive than others in examining Internet banking. GAO
also found that the FDIC had completed the most examinations of on-line banking operations at
that time and that the Office of Thrift Supervision and the FDIC had been actively issuing
policies and procedures for Internet banking examinations. However, GAO concluded that too
few examinations had been conducted at that time to identify the extent of industry-wide Internet
banking-related problems.

Laws and Regulations

Appendix C of the FFIEC’s December 2002 Information Security Booklet identifies laws and
regulations issued by federal banking regulatory agencies that are currently applicable to IT
security. These include the following:

•   Laws

    o   12 U.S.C. 1867(c): Bank Service Company Act
    o   12 U.S.C. 1882: Bank Protection Act
    o   15 U.S.C. 6801 and 6805(b): Gramm–Leach–Bliley Act
    o   18 U.S.C. 1030: Fraud and Related Activity in Connection with Computers

•   FDIC Regulations

    Title 12 of the Code of Federal Regulations (12 C.F.R.), Banks and Banking

    o   12 C.F.R. Part 326, Subpart A: Minimum Security Procedures
    o   12 C.F.R. Part 326, Subpart B: Procedures for Monitoring Bank Secrecy Act
                            Compliance
    o   12 C.F.R. Part 332, Privacy of Consumer Financial Information
    o   12 C.F.R. Part 353, Suspicious Activity Reports
    o   12 C.F.R. Part 364, Appendix A: Interagency Guidelines Establishing Standards for
                            Safety and Soundness
    o   12 C.F.R. Part 364, Appendix B: Interagency Guidelines Establishing Standards for
                            Safeguarding Customer Information

We did not test for compliance with these laws and regulations as they were beyond the scope of
this audit.




                                               17
                                                                                     APPENDIX I


Government Performance and Results Act

We reviewed DSC’s performance measures under the Government Performance and Results Act
(GPRA), Public Law 103-62. We determined that the FDIC did not have a corporate
performance objective specifically related to the IT examinations. However, according to the
FDIC’s 2003 Annual Performance Plan, and as shown in Table 4, the FDIC established the
following strategic goal, objective, and annual performance goal that include a review of
information technology as part of the FDIC’s overall assessment of risk management and safety
and soundness. The means and strategies the FDIC uses to achieve this strategic goal include
information technology examinations in general.

Table 4: Performance Measures Related to Supervision and Examination
 Strategic     Strategic
    Goal       Objective      Annual Performance Goal           Means and Strategies
                           Conduct on-site safety and       Both on-site safety and
                           soundness examinations to assess soundness and IT
FDIC-        FDIC-
                           an FDIC-supervised insured       examinations cover
supervised supervised
                           depository institution’s overall technology-related activities
institutions institutions
                           financial condition, management to determine how each FDIC-
are safe and appropriately
                           practices and policies, and      supervised insured depository
sound.       manage risk.
                           compliance with applicable       institution manages risk in
                           regulations.                     that area.
Source: The FDIC’s 2003 Annual Performance Plan.



Fraud and Illegal Acts

The limited nature of the audit objective did not require that we assess the possibility for fraud
and illegal acts. However, throughout the audit we were alert to the possibility of fraud and
illegal acts, and no instances came to our attention.




                                                   18
                                                                                              APPENDIX II


                                  SUMMARY TABLE OF RESULTS
                     TPS*      Exam
         Assets      Score/    Type/     Date of    Exam      No Audit         Incorrect   Outdated   Lacking
Bank    (billions)    Type     Tier**     Exam      Hours     Exception        Program     Program    Support
 A        $ 9.9       75/III   IV/1      01.13.03    227        9-a
 B            5.5     65/III     III     02.10.03     90        9
 C            0.1     50/III     III     06.09.03    127        9
 D           10.8     75/III     III     06.09.03     70        9
 E            0.8     65/III     III     06.16.03    263        9
 F            6.2     65/III    III/2    06.16.03    111        9
 G            3.0     55/III     III     08.04.03    173        9
 H            7.1     70/III     III     08.04.03     69        9
  I           0.1     50/III    III/2    08.04.03     68        9
 J            8.9     50/III     III     11.10.03    196        9
 K           19.8    105/IV     IV/2     04.16.03    260        9-b
 L            3.1     85/IV     IV/2     07.28.03    378        9-b
 M            2.6     65/III     III     07.14.03    256                                               9-f
 N            1.1     80/IV      III     02.18.03    412                         9-c                   9-g
 O            3.1    100/IV      III     09.29.03    238                         9-c
 P            1.4     85/IV      III     10.27.03    135                         9-c
 Q           12.0     95/IV     IV/1     03.31.03    200                                    9-d        9-h
 R           14.1    100/IV     IV/1     04.07.03    168                                    9-d
 S            4.0     85/IV     IV/1     08.11.03    128                                    9-d
 T            1.5     90/IV     IV/1     10.20.03    140                                    9-d
 U            4.8     85/IV     IV/1     11.03.03     85                                    9-e
Total    $ 119.9                                                  12              3          5          3
Source: OIG analysis of 21 sampled IT examinations of FDIC-supervised banks.

 * – Technology Profile Script, discussed in Appendix IV.
** – Tier 1 examination procedures are an overview of risk and risk management processes, while Tier 2
     procedures are more in-depth verification procedures.

Notes

a – Examination was started before the new December 2002 FFIEC Information Security work program was
    implemented. Examiners used 1996 FFIEC Information Systems work programs.
b – Examiners used the new December 2002 FFIEC Information Security work program.
c – Examiners performed less thorough Type III examinations rather than the required Type IV
    examinations.
d – Examiners used outdated 1996 FFIEC Information Systems work programs rather than the required 2002
    FFIEC Information Security work program.
e – Examiner used the FFIEC Community Financial Institution Examination Networking and Data Security
    Workprogram (Section 5) instead of the new 2002 FFIEC Information Security work program.
f – Most (63 percent) questions and work steps in the IT General Work Program either were not answered or
    were not completed.
g – Only one page of IT General Work Program was in the examination work paper files.
h – Missing Physical and Data Security work program. Reference is made to it within other work programs.




                                                       19
                                                                                  APPENDIX III


          UNIFORM RATING SYSTEM FOR INFORMATION TECHNOLOGY

The Uniform Rating System for Information Technology (URSIT) is based on a risk evaluation
of four critical components: Audit, Management, Development and Acquisition, and Support
and Delivery. These components are used to assess the overall performance of IT within an
organization. Examiners evaluate the functions identified within each component to assess the
institution's ability to identify, measure, monitor, and control information technology risks. Each
examined organization is assigned a summary or composite rating based on the overall results of
the evaluation. The IT composite rating and each component rating are based on a scale of 1
through 5 in ascending order of supervisory concern with 1 representing the highest rating and
least degree of concern and 5 representing the lowest rating and highest degree of concern.
These components address the following:

   •   Audit – This rating should reflect the adequacy of the organization's overall IT audit
       program, including the internal and external auditor's abilities to detect and report
       significant risks to management and the board of directors on a timely basis. The rating
       should also reflect the internal and external auditor's capability to promote a safe, sound,
       and effective operation.

   •   Management – This rating should reflect the board's and management's ability as it
       applies to all aspects of IT operations, that is, to all aspects of IT acquisition,
       development, and operations.

   •   Development and Acquisition – This rating reflects an organization's ability to identify,
       acquire, install, and maintain appropriate IT solutions and the adequacy of the institution's
       systems development methodology and related risk management practices for acquisition
       and deployment of information technology. The rating also reflects the board’s and
       management's ability to enhance and replace IT prudently in a controlled environment.

   •   Support and Delivery – This rating reflects an organization's ability to provide
       technology services in a secure environment. The rating reflects not only the condition of
       IT operations but also factors such as reliability, security, and integrity, which may affect
       the quality of the information delivery system.

Institutions receive URSIT ratings in accordance with the following guidelines:

   •   Financial institutions exposed to a very low level of technology risk (those for which IT-
       MERIT examination procedures were used) are assigned only a composite URSIT rating
       in a safety and soundness report of examination.

   •   Financial institutions exposed to low to moderate technology risk that receive a 1 or 2
       URSIT composite rating at current IT examinations will be assigned only a composite
       URSIT rating in a safety and soundness report of examination.

   •   Financial institutions exposed to low to moderate technology risk with any component
       URSIT rating of 3, 4, or 5 or a composite rating of 3, 4, or 5 at the current IT examination



                                                20
                                                                               APPENDIX III

    will be assigned a full URSIT rating – a rating for each of the four critical components and
    a composite rating – in a separate IT report of examination.

•   Financial institutions exposed to a high level of technology risk will be assigned a full
    URSIT rating in a separate IT report of examination.




                                             21
                                                                                    APPENDIX IV


                              TECHNOLOGY PROFILE SCRIPT

The Technology Profile Script is a series of questions completed by FDIC Field Supervisors or
their designees no more than 3 months before each IT examination. The questions are generally
answered by contacting the financial institution but can be completed based on information
obtained from prior IT examination reports or from FDIC databases. Examiners use the answers
from the profile script to complete a scoring matrix included as part of the profile script. Each
technology component used by the institution contributes to the overall matrix score. The Field
Supervisor or Supervisory Examiner may also make qualitative adjustments to the numeric
scores to address risks that may not be evident in the Technology Profile Script.

The profile script is designed to be a standardized basic measurement of the complexity and risk
of the technology deployed at a financial institution. The profile script can be used as a guide to
assist examiners and managers in planning IT examinations by identifying key risk areas to
review, the level and scope of review needed, and required examination procedures. The profile
script can also be used to allocate examination resources and match examiner skills to the
complexity of the institution or determine training needs.

The matrix score and other qualitative criteria are used to classify an institution’s technology
profile. Based on the matrix score, institutions are grouped into one of four technology profile
categories. These range from Type I institutions that have limited technology systems to
Type IV institutions that have complex or sophisticated technology systems. An institution’s
technology profile category, or type, is the key factor to determine the examination procedures to
be used, such as whether the institution qualifies for IT-MERIT Procedures, the IT General Work
Program, or FFIEC work programs. Table 5 quantifies the numerical ranges for determining the
technology profile category and required examination procedures to be used at each financial
institution being evaluated.

Table 5: Technology Profile Scoring Matrix
  Technology Profile          Technology
 Matrix Score Range         Profile Category                   Required Work Program
         0-49                    Type I                          IT-MERIT Procedures
         0-49                    Type II                       IT General Work Program
                                                               IT General Work Program
          50-79                      Type III
                                                         supplemented by FFIEC work programs
         80-130                      Type IV                     FFIEC work programs
Source: FDIC Regional Directors Memorandum 2002-043.



Type I and Type II financial institutions have similar technology profile characteristics and fall
within the same matrix score range. Type I differs from Type II in that Type I institutions have
satisfactory ratings and do not conduct in-house programming or processing of core applications
for other institutions. Type II institutions are those with less than satisfactory ratings (i.e., any
component or composite URSIT rating of 3, 4, or 5 at the prior or current IT examination,
including state regulatory authority examinations accepted by the FDIC) and those that conduct




                                                 22
                                                                                  APPENDIX IV

in-house programming or perform core processing services for other insured financial
institutions. Characteristics of each technology profile category are shown below.

•   Type I financial institutions have limited networking and e-Banking activities and do not
    conduct in-house programming or perform core processing services for other insured
    institutions. Institutions in this category have minimal external threats with primary risks
    centered on the core banking system or vendor management. Examiners will use IT-MERIT
    procedures exclusively for all Type I institutions.

•   Type II financial institutions have limited networking and e-Banking activities and usually do
    not conduct in-house programming or servicing of other institutions. Institutions in this
    category have minimal external threats with primary risks centered on the core banking
    system or vendor management. Examiners will use the IT General Work Program for all
    Type II institutions.

•   Type III financial institutions have fully integrated networking into their operations.
    Institutions in this category have increased external threats from e-Banking activities and
    Internet connections or have increased operational risks from limited programming activities
    or servicing responsibilities. Examiners will use the IT General Work Program,
    supplemented with FFIEC work programs as needed, for Type III institutions.

•   Type IV financial institutions rely on networks and other communication systems as a critical
    element of their operations. Networking among business clients and partners is common,
    and Internet connectivity may be relied upon as a critical communications medium. As a
    result of Internet and other wide-area network connections, risk of compromise or access to
    critical systems from external sources is present. The complexity of the technology increases
    system administration and security risks. Examiners will use the FFIEC work programs for
    all Type IV institutions




                                                23
                       APPENDIX VI



CORPORATION COMMENTS
     APPENDIX V




25
                                                                                                                                              APPENDIX VI

                                              MANAGEMENT RESPONSE TO RECOMMENDATIONS
     This table presents the management response that has been made on the recommendation in our report and the status of the
     recommendation as of the date of report issuance. The information in this table is based on management’s written response to our report.


          Rec.                                                                                                                                              Open
         Number    Corrective Action: Taken or                         Expected                  Monetary          Resolved:a       Dispositioned:b          or
                   Planned/Status                                  Completion Date               Benefits          Yes or No          Yes or No            Closedc
           1       DSC will assess and revise as                   December 31, 2004               N/A                Yes                No                 Open
                   necessary the instructions for the IT
                   pre-examination planning
                   memoranda to include type of
                   examination planned, Technology
                   Profile Script score, and the intended
                   work program to be used.

                   DSC is standardizing a field office               March 31, 2005
26




                   review program to ensure
                   examination program conformance
                   with FDIC policies and to apply the
                   appropriate emphasis on areas
                   reviewed. The review program will
                   include periodic sampling of
                   examination work papers and a
                   review of examination processing.
     a
       Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                  (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                  (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                      as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
       Once the OIG dispositions the recommendation, it can then be closed.
